   D
   I                                                               EMPLOYMENT AND TRAINING

U.S. Department of Labor
   S
   C
   U
   S
   S
   I
   O
                                                                   ADMINISTRATION


   N                 Office of Inspector General—Office of Audit
   D
   R
   A
   F
   T




                                                                   EDUCATION AND TRAINING RESOURCES DID
                                                                   NOT ENSURE BEST VALUE IN AWARDING
                                                                   SUB-CONTRACTS AT THE
                                                                   ONEONTA JOB CORPS CENTER




                                                                                      Date Issued:      June 22, 2012
                                                                                   Report Number:    26-12-001-03-370
U.S. Department of Labor                                    June 2012
Office of Inspector General
                                                            EDUCATION AND TRAINING RESOURCES DID
Office of Audit
                                                            NOT ENSURE BEST VALUE IN AWARDING

BRIEFLY…                                                    SUB-CONTRACTS AT THE
                                                            ONEONTA JOB CORPS CENTER
Highlights of Report Number 26-12-001-03-370, issued
to the Assistant Secretary for Employment and Training.     WHAT OIG FOUND
                                                            ETR Oneonta improperly awarded all 6 of the
WHY READ THE REPORT                                         sub-contracts and 2 corporate sub-contracts it managed
Education and Training Resources (ETR) operates the         during our review period. We questioned $474,900
Oneonta Job Corps Center (ETR Oneonta) located in           because ETR Oneonta did not comply with its own
Oneonta, NY. This report discusses how ETR Oneonta          SOPs. Three of the six sub-contracts were for physician
did not ensure the government received best value           services for students. As such, it was critical for the
when awarding sub-contracts and purchase orders.            center to ensure its students received adequate care by
While ETR Oneonta is not required to specifically           evaluating the bids based on the quality of services to
comply with the Federal Acquisition Regulation (FAR),       be provided, as well as costs. We also questioned
DOL policy requires ETR’s procedures to be consistent       $40,643 for two sub-contracts awarded by ETR
with the FAR principles for fair and open competition.      corporate because the sub-contracts had not been
We questioned costs, totaling $537,407, due to ETR          competitively bid and advertised.
Oneonta’s non-compliance with its own procurement
Standard Operating Procedures (SOP). This report also       Issues were found in the award of purchase orders to
discusses process improvements ETR Oneonta, ETA,            vendors for 5 of the 30 expenditures more than $3,000
and Job Corps need to make to ensure ETR Oneonta’s          that we statistically selected. For the 5 expenditures,
future sub-contract and purchase order awards comply        totaling $21,864, the center did not adequately justify
with its own procurement guidance.                          and document the sole-source procurement. We
                                                            questioned the $21,864 in total costs for the 5
ETR Oneonta’s contract with Job Corps to operate the        expenditures.
center covers the 5-year period from July 1, 2009, to
June 30, 2014. The contract value totals approximately      These conditions occurred because ETR Oneonta had
$48 million (including $19 million for the base 2-year      not established a control environment, including training
period and $29 million for 3 option years).                 and oversight, to ensure consistent compliance with its
                                                            SOPs. Also, neither ETA contracting personnel nor Job
WHY OIG CONDUCTED THE AUDIT                                 Corps regional staff adequately monitored ETR
Our audit objective was to answer the following question:   Oneonta’s sub-contracting procurement activities.

  Did ETR Oneonta ensure best value when awarding           WHAT OIG RECOMMENDED
  sub-contracts and claiming costs?                         We recommended the Assistant Secretary for
                                                            Employment and Training direct ETA contract
Our audit work was conducted at ETR Oneonta Job             personnel and Job Corps regional staff to determine the
Corps Center in Oneonta, NY; ETA Headquarters’              difference between the fair value of goods and services
Office of Contract and Management; Job Corps’               received by ETR Oneonta and our questioned costs,
National Office in Washington, DC; and the Boston           ensure ETR Oneonta complies with its own SOPs, and
Regional Office of Job Corps in Boston, MA.                 review all future ETR Oneonta sub-contracts for
                                                            procurement compliance and approval prior to award.
READ THE FULL REPORT                                        We also recommended that ETR be directed to repay
To view the report, including the scope, methodology,       the determined amount, strengthen procurement
and full ETA and ETR responses, go to:                      procedures, provide training, and develop procedures
                                                            for providing oversight to ensure compliance with
http://www.oig.dol.gov/public/reports/oa/2012/26-12-        procurement SOPs.
001-03-370.pdf.
                                                            ETA generally agreed with our findings and fully or
                                                            partially accepted our recommendations. ETR
                                                            disagreed with our draft report, including our use of the
                                                            FAR as criteria for sub-contracting awards made by
                                                            ETR Oneonta. Based on the responses of ETA and
                                                            ETR, we adjusted the report to reflect that ETR must
                                                            comply with its own procurement SOPs, which must be
                                                            consistent with the FAR principles for fair and open
                                                            competition.
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                    ETR Oneonta Sub-Contracting

                                     Report No. 26-12-001-03-370

                                                             U.S. Department of Labor – Office of Inspector General




Table of Contents


Assistant Inspector General’s Report ......................................................................... 1


Results In Brief.............................................................................................................. 3


Objective — Did ETR Oneonta ensure best value when awarding sub-contracts 

and claiming costs?...................................................................................................... 5

         ETR Oneonta improperly awarded sub-contracts resulting in $537,407 in
           questioned costs.

         Finding — ETR Oneonta did not always award sub-contracts as required
            by its own procurement guidance.

Recommendations ...................................................................................................... 11


Exhibits
         Exhibit 1 FAR Criteria on Sub-Contracting Used by ETA Contracting

            Officers.......................................................................................................... 15

         Exhibit 2 ETR Oneonta Sub-contracts and SOP Non-compliance..................... 17


Appendices
         Appendix A Background ..................................................................................... 21

         Appendix B Objective, Scope, Methodology, and Criteria .................................. 23

         Appendix C Acronyms ........................................................................................ 29

         Appendix D ETA Response to Draft Report ....................................................... 31

         Appendix E ETR Response to Draft Report ....................................................... 35

         Appendix F Acknowledgements ......................................................................... 61





                                                                                           ETR Oneonta Sub-Contracting

                                                                                            Report No. 26-12-001-03-370

             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                    ETR Oneonta Sub-Contracting

                                     Report No. 26-12-001-03-370

                                                         U.S. Department of Labor – Office of Inspector General


U.S. Department of Labor                               Office of Inspector General
                                                       Washington, D.C. 20210




                                Assistant Inspector General’s Report

June 22, 2012

Ms. Jane Oates
Assistant Secretary
 for Employment and Training
200 Constitution Avenue, NW
Washington, DC 20210

Job Corps is a residential training program for disadvantaged youth where employability
skills are developed. Its training activities and living facilities are housed within 125
centers throughout the country. The Job Corps program is administered by the
Department of Labor’s (DOL) Employment and Training Administration (ETA) per
authorization provided by the Workforce Investment Act (WIA). Within ETA, the program
is managed by the Office of Job Corps, which consists of a national office and 6
regional offices. The Job Corps program’s budget for fiscal year (FY) 2011 totaled about
$1.7 billion.

Education and Training Resources, Inc. (ETR) operates the Oneonta Job Corps Center
(ETR Oneonta), located in Oneonta, NY. ETR’s contract with Job Corps covers the 5-year
period from July 1, 2009, to June 30, 2014. The contract value totaled approximately
$48 million, ($19 million for the base 2-year period and $29 million over 3 option years).

FAR Subpart 44.302 requires ETA to determine the need for a Contractor Purchasing
System Review (CPSR) based on, but not limited to, the past performance of the contractor
and the dollar value of sub-contracts (generally $25 million). FAR Subpart 44.301 states
that the objective of a CPSR is to evaluate the efficiency and effectiveness with which the
contractor spends Government funds and complies with Government policy when
sub-contracting. The review provides the Contracting Officer with a basis for granting,
withholding, or withdrawing approval of the contractor’s purchasing system. 1 Furthermore,
FAR Subpart 44.303 states:

         The 13 considerations listed in FAR Subpart 44.202-2 for consent
         evaluation of particular sub-contracts also shall be used to evaluate the
         contractor’s purchasing system, including the contractor’s policies,
         procedures, and performance under that system.



 ETA reviews each center operator’s procurement systems every three years. If the procurement system is
1

“approved,” ETA contracting officials reduce their oversight of the center operator’s procurement activities.


                                                                                     ETR Oneonta Sub-Contracting
                                                           1                          Report No. 26-12-001-03-370
                                          U.S. Department of Labor – Office of Inspector General


FAR Subpart 44.202-2 notes that special attention shall be given to the 13 considerations,
including:

      (a) The results of market research accomplished;
      (b) The degree of price competition obtained;
      (c) Pricing policies and techniques, including methods of obtaining certified cost or
      pricing data;
      (d) Methods of evaluating sub-contractor responsibility;
      (g) Planning, award, and post-award management of major sub-contract programs;
      and
      (j) Appropriateness of types of contracts used.

See Exhibit 1 for selected details on the FAR criteria ETA Contracting Officers use to
evaluate contractor purchasing systems.

Job Corps’ policy for conducting CPSRs (Section 4.9, Job Corps Procurement
Compendium) states that it is in the government’s interest to perform CPSRs when a
contractor’s total combined business with Job Corps exceeds $25 million. The DOL policy
further clarifies the center operators’ responsibility to establish procurement policies and
procedures that are consistent with the FAR. Specifically, under the terms of center
operator contracts, Contracting Officers are responsible for ensuring that goods and
services are procured in conformance with the contract provisions and principles detailed in
the FAR. Contracting Officers can either review and consent to all sub-contracts for the
contract, or may approve the contractor’s purchasing system. The DOL policy also states
that the FAR allows for approval of purchasing systems that demonstrate compliance with
FAR principles after a rigorous review of all purchasing manuals and procedures.

As a result of the CPSR, ETR’s purchasing system was not approved. As such, ETR
Oneonta was required to submit sub-contracts to ETA for consent prior to contract award.
ETR Oneonta’s SOPs were approved by ETA when ETR was awarded the contract to
operate ETR Oneonta. ETR’s 2010 Procurement Technical Guide requires its centers to
comply with the corporate and center SOPs and the FAR.

Based on the responses of ETR and ETA to our draft report (Appendices D and E) and
subsequent communication, we revised our criteria to evaluate ETR Oneonta’s compliance
with its own procurement SOPs and the SOPs consistency with the FAR requirement for
ensuring best value to the government. As such, our audit objective was to answer the
following question:

      Did ETR Oneonta ensure best value when awarding sub-contracts and
      claiming costs?

To address our audit objective, we reviewed criteria that were applicable to ETR
Oneonta’s procurement activities as of July 2011, including specific sections of the FAR,
Job Corps PRH, contract provisions, ETR and ETR Oneonta’s SOPs. We analyzed
ETR’s and the Job Corps Boston Regional Office’s assessments of ETR Oneonta’s


                                                                 ETR Oneonta Sub-Contracting
                                            2                     Report No. 26-12-001-03-370
                                                    U.S. Department of Labor – Office of Inspector General


operations, performed process walkthroughs with key ETR corporate and ETR Oneonta
officials, and discussed our audit with ETA and Job Corps staff. We reviewed ETR
Oneonta’s SOPs to determine whether they ensured best value to the government; and
tested each of the sub-contracts and expenditures 2 for compliance with the SOPs. Our
testing included a review of the sub-contracts to determine if the center obtained
adequate price competition or properly justified its absence; considered past
performance, technical requirements, and ability to comply with proposed performance
and delivery schedules; and performed adequate cost or price comparisons. We also
determined whether documentation was maintained to support sub-contract claimed
costs.

The audit covered sub-contracts managed and expenditures incurred by ETR Oneonta
from April 1, 2010, to March 31, 2011. We examined all six sub-contracts (including their
related invoice payments) totaling $474,900, managed by ETR Oneonta during this
period. In addition, we reviewed the two corporate sub-contracts, totaling $900,000,
awarded by ETR that covered the four centers operated by ETR, including ETR
Oneonta. We also reviewed a statistical sample of 30 expenditures more than $3,000,
totaling $371,352, from a universe of 60 expenditures, totaling $583,435. These
expenditures were generally initiated by purchase orders and were separate items from
the six sub-contracts we reviewed. ETR’s contract to operate ETR Oneonta was not
included in our review because it was awarded by ETA.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on
our audit objective. Additional background information is detailed in Appendix A, and our
objective, scope, methodology, and criteria are detailed in Appendix B.

Results In Brief

ETR Oneonta did not always ensure best value was received by the government when
awarding sub-contracts and purchase orders. We questioned costs totaling $537,407
because ETR Oneonta did not always comply with its SOPs and ensure best value to the
government. Based on our statistical sampling, we estimated that questioned costs for
improperly awarded sub-contracts and purchase orders may be as high as $588,945.

ETR Oneonta improperly awarded all 6 of the sub-contracts and 2 corporate sub-contracts
managed during our review period. For the six sub-contracts, we questioned $474,900
because the center had not complied with its own procurement procedures and had not
ensured best value to the government. Specifically, ETR Oneonta did not conduct



2
 We also reviewed expenditures associated with purchase orders and other documents procuring goods and
services.

                                                                              ETR Oneonta Sub-Contracting
                                                      3                        Report No. 26-12-001-03-370
                                                          U.S. Department of Labor – Office of Inspector General


responsibility checks on each of the bidders. 3 Since these sub-contracts were for physician
services, including mental health and dental, it was critical that ETR Oneonta ensure its
students received adequate care by performing responsibility checks. Responsibility checks
should include experience and past performance in the following areas: providing services
to a diverse student population, ages 16-24; and conducting mental health assessments,
supervising treatment plans, and providing individual and group therapy and training. In
addition, for the two corporate sub-contracts awarded by ETR, we questioned $40,643
because the contracts had not been competitively bid and advertised. Additionally,
responsibility checks and adequate cost analysis were not performed.

Awarding purchase orders to vendors was an issue for 5 (17 percent) of the 30
expenditures more than $3,000 we statistically selected. For all 5 expenditures, totaling
$21,864, the center did not adequately justify and document sole-source procurements and
ETR Oneonta management approved the expenditures without verifying the adequacy of
the sole source justification. The $21,864 represented 5.9 percent of the $371,352 in
expenditures tested. We are 95 percent confident there were between $20,120 and
$73,402 in potential questioned cost. Together with the 6 improperly awarded
sub-contracts, the total costs for improperly awarded sub-contracts and purchase orders
may be as high as $588,945 ($515,543 plus $73,402).

These conditions occurred because ETR Oneonta did not comply with its own SOPs; and
training and oversight were not adequate. The center also did not have sufficient detailed
procedures in place. As such, ETR Oneonta had not established a control environment to
ensure compliance and best value to the government. In response to our draft report,
ETA generally agreed with our findings and fully or partially accepted all of our
recommendations. As previously noted, ETR disagreed with our draft report, including our
use of the FAR as criteria for sub-contracting awards made by ETR. Based on the
responses of ETR and ETA, we revised the report to reflect that ETR must comply with its
own procurement SOPs, which must be consistent with the FAR principles for fair and
open competition. In addition, neither ETA contracting personnel nor Job Corps regional
staff adequately monitored ETR Oneonta’s procurement activities to determine if ETR
Oneonta achieved best value through fair and open competition in its sub-contracting.
(See Appendix D for ETA’s response to our draft report and Appendix E for ETR’s
response to our draft report.)

We recommended the Assistant Secretary for Employment and Training determine the
fair value of services received under the procurements we questioned and recover any
difference in actual costs claimed; direct ETR and ETR Oneonta to strengthen
procurement procedures, provide training, and oversight to ensure compliance with its
own procurement criteria; and direct ETA contract personnel and Job Corps regional
staff to review all future ETR Oneonta sub-contracts for competition and best value prior
to award approval.


3
 ETR vendor selection criteria noted in its Procurement Technical Guide (pages 12-13) include experience, past
performance, availability, and other factors for consideration. We refer to this evaluation as “responsibility checks”
throughout this report.

                                                                                      ETR Oneonta Sub-Contracting
                                                            4                          Report No. 26-12-001-03-370
                                         U.S. Department of Labor – Office of Inspector General


RESULTS AND FINDINGS

Objective — Did ETR Oneonta ensure best value when awarding sub-contracts
            and claiming costs?

ETR Oneonta improperly awarded sub-contracts resulting in $537,407 in questioned
costs.

Finding — ETR Oneonta did not always award sub-contracts as required by its
          own procurement guidance.

Based on our testing, ETR Oneonta maintained documentation to support claimed costs
had been incurred. However, ETR Oneonta improperly awarded all 6 of the
sub-contracts and 2 corporate sub-contracts because ETR Oneonta did not comply with
its own procurement procedures and did not ensure best value to the government. ETR
Oneonta also did not comply with its own procedures when awarding purchase orders
to vendors for 5 of the 30 expenditures more than $3,000 we statistically selected. We
questioned $21,864 in costs for these 5 expenditures. In total, we questioned $537,407
in claimed costs. However, based on our statistical sampling, the total costs for
improperly awarded sub-contracts and purchase orders may be as high as $588,945.

These conditions occurred because ETR Oneonta had not established a control
environment, including training and providing oversight, to ensure compliance with its
own SOPs to ensure best value to the government. Also, neither ETA contracting
personnel nor Job Corps regional staff adequately monitored ETR Oneonta’s
procurement activities to determine if ETR Oneonta achieved best value when awarding
sub-contracts.

ETR Oneonta’s SOP Requirements

When awarding sub-contracts, ETR Oneonta is required by its contract and the PRH to
follow its own SOPs. The ETR Oneonta SOPs for procuring goods or services and claiming
costs include the following:

ETR Procurement Technical Guide

   •	 Importance of a Sound Purchasing System (pages 4 – 5)
         - Purchasing foundation and knowledge is obtained by understanding and
            utilization of the FAR.
         - Each procurement file shall have its own folder, containing all documentation
            in accordance with ETR SOPs, FAR, and Job Corps Regulations.
         -	 The Center shall solicit fair, reasonable, and open competition. In order to
            accomplish this task, the Center must adhere to FAR.

   •	 Roles and Responsibility, Corporate Officer / Center (page 6) – The Center, under
      its contract with the USDOL, has the authority to utilize Government funds for the

                                                                ETR Oneonta Sub-Contracting
                                           5                     Report No. 26-12-001-03-370
                                          U.S. Department of Labor – Office of Inspector General


      purchase of goods and services required in the fulfillment of the contract. It is up to
      the Center to utilize these funds in accordance with its contract requirements, PRH,
      Job Corps regulations, and FAR.

   •	 Procedures (page 7) – All acquisition transactions shall be prepared and processed
      in accordance with the FAR and ETR SOPs.

   •	 Vendor Selection (pages 12 – 13)
        - By adhering to FAR vendor selection, equal opportunity for all eligible vendors
           and small businesses are more complete.
        -	 Some other areas to be aware of when selecting a vendor are as follows, but
           not limited to: cost, experience, references, past performance, and past
           experience with Job Corps.

   •	 BPA Checklist Form Number CP010-008 (pages 45 – 46) – The BPA procurement
           folder shall include checklist items to include the following:
        - Section 1, Evidence of Completion – Advertising (anything over $3,000 must
           be advertised in the local paper and anything over $25,000 must be
           additionally advertised on the FedBizOpps.gov website.)
        -	 Section 3, Subcontracts – Performance Reports, Subcontractor Evaluations,
           and an evaluation of the contract winner’s performance.

ETR Oneonta SOP # 571 Approved Procurement Systems

   •	 C-1-D-3 Vendor Selection, Purchases in Excess of $25,000 – After the bids have
      been received, they will be opened and reviewed by the Purchasing Agent and
      Director of Administrative Services. The contract will be awarded to that
      responsible qualified bidder, whose bid conforms to the invitation and is most
      advantageous to the government, considering price and other factors. Price
      alone will not always dictate a contract award.

   •	 D-4 Special Purchases / Conditions, Sole Source Purchasing – Thorough 

      documentation is required to justify any sole source purchases from

      non-governmental sources. Any actions should reflect a strong intent and 

      commitment to obtain competition.


Non-Compliance Resulted in $537,407 in Questioned Costs

We reviewed all six sub-contracts, totaling $474,900, managed by ETR Oneonta, and
two corporate sub-contracts, totaling $900,000, awarded by ETR that covered the four
centers operated by ETR, including Oneonta. The audit covered sub-contracts
managed and expenditures incurred by ETR Oneonta from April 1, 2010, to
March 31, 2011. In addition, we reviewed a statistical sample of 30 expenditures more
than $3,000, totaling $371,352, from a universe of 60 expenditures totaling $583,435.




                                                                 ETR Oneonta Sub-Contracting
                                            6                     Report No. 26-12-001-03-370
                                          U.S. Department of Labor – Office of Inspector General


ETR Oneonta did not consistently comply with its own SOPs when awarding
sub-contracts, resulting in questioned costs totaling $537,407. Table 1 summarizes the
types of non-compliance, the number of instances, and the questioned costs for each
type.

Table 1: ETR Oneonta non-compliance resulting in questioned costs
                                   Sub-contracts more
                                                      Expenditures more than
                                     than $25,000 /
     SOP Non-Compliance                                 $3,000 / amount of
                                       amount of
                                                         questioned costs
                                    questioned costs
  Responsibility checks were not
  executed prior to sub-contract*;
  3 bids and ETA consent not
  obtained as required
                                        6 of 6 (100%)
  ETR Procurement Technical                                          Not Applicable
                                          $474,900
  Guide, Vendor Selection (page
  12); ETR Oneonta SOP # 571,
  C-1-D-3; ETR Procurement
  SOP page 11; ETR
  Procurement SOP page 14
  Fair and open competition and
  cost or price analysis were not
  executed prior to award of
  corporate sub-contracts               2 of 2 (100%)
                                                                     Not Applicable
                                           $40,643
  ETR Procurement Technical
  Guide – BPA Checklist Form
  CP010-008
  Inadequate sole-source
  justification
                                                                 Sample: 5 of 30 (17%)
                                       Not Applicable
                                                                       $21,864
  ETR Oneonta SOP # 571
  Section D-4
             Totals                     8 of 8 (100%)            Sample: 5 of 30 (17%)
           $537,407                       $515,543                     $21,864

*ETR Oneonta SOP # 571 Approved Procurement Systems: Section C-1-D-3 Vendor
Selection requires sub-contracts to be awarded to responsible qualified bidders. In addition,
vendor selection criteria as noted in ETR’s Procurement Technical Guide (pages 12-13)
include experience, past performance, availability, and other factors for consideration and
we refer to this evaluation as “responsibility checks.” Responsibility checks for determining
responsible qualified bidders include technical skills, experience, and past performance.




                                                                 ETR Oneonta Sub-Contracting
                                            7                     Report No. 26-12-001-03-370
                                         U.S. Department of Labor – Office of Inspector General


Sub-contracts More Than $25,000 with Questioned Costs

As noted, we questioned $474,900 in costs for the six sub-contracts managed by ETR
Oneonta and $40,643 for the two corporate contracts managed by ETR. The following
are examples of how ETR did not ensure compliance with its SOPs or best value to the
government.

Sub-contracts managed by ETR Oneonta:

      Example 1 – On September 23, 2009, ETR Oneonta awarded a $72,000, 2-year
      physician services sub-contract to Kathleen Bolgar for provision of mental health
      services. In procuring the sub-contract, ETR advertised on the FedBizOpps
      website and received two bids, one for $75 per hour by Ms. Bolger and one for
      $60 to $65 per hour. Center records indicate ETR Oneonta selected Ms. Bolgar’s
      bid because her work at the center the previous five years was noted as positive;
      and the lower bidder was not selected because they did not have the credentials
      that allowed them to order and manage medications. The sub-contract was
      submitted to the ETA Contracting Officer for consent on October 12, 2010.

      However, ETR Oneonta did not comply with ETR’s Procurement Technical Guide
      and the center SOPs when it awarded the sub-contract to Ms. Bolger. The center
      did not document why three bids were not obtained and maintain evidence that
      sufficient responsibility checks were performed on all bidders. Additionally, the
      center did not follow its required subcontract approval process. The sub-contract
      was awarded to Ms. Bolger on September 23, 2009, which was prior to the date
      approved by ETR corporate of September 25, 2009, and the date of consent by
      the ETA Contracting Officer of December 21, 2009.

      Example 2 – On June 22, 2010, ETR Oneonta awarded a $52,300 service
      contract to All American Midwest for painting throughout the dorms. In procuring
      the sub-contract, ETR Oneonta advertised for the vendor on the FedBizOpps
      website. The center received 6 bids and awarded the sub-contract to the lowest
      bidder. The sub-contract was submitted to the ETA Contracting Officer for
      consent on June 21, 2010.

      ETR Oneonta did not comply with its own SOPs. There was no evidence that
      responsibility checks were performed. As such, their ability to provide services
      was not assessed to ensure best value. Also, the sub-contract was not approved
      by the ETA Contracting Officer before being executed by ETR and All American
      Midwest. The sub-contract between ETR Oneonta and All American Midwest
      was dated and signed on June 22, 2010. The Contracting Officer signed and
      dated the consent form to place the sub-contract on June 25, 2010. ETR
      Oneonta did not comply with its SOPs and ensure best value to the government.
      As such, we questioned the $52,300 cost of the sub-contract.




                                                                ETR Oneonta Sub-Contracting
                                          8                      Report No. 26-12-001-03-370
                                        U.S. Department of Labor – Office of Inspector General


     See Exhibit 2 for details on the other four sub-contracts that were not awarded in
     accordance with the FAR.

BPAs managed by ETR:

     Example 3 – In 2010, ETR employed a procurement consultant, Above the
     Standards Procurement Group (Above the Standards), to obtain office supplies
     under a BPA for its four centers, including ETR Oneonta. The consultant selected
     large office supply vendors and submitted a Request for Proposal (RFP) to these
     specific vendors. The RFP requested prices for items listed on a pricing
     schedule. Above the Standards awarded a one-year, $450,000 BPA to Staples
     because it was the only vendor to complete the pricing schedule. ETR Oneonta
     records indicated other vendors did not provide complete pricing information
     because they did not understand the pricing schedules or had other technical
     problems. As of our July 2011 fieldwork at ETR Oneonta, the center had claimed
     costs of $23,351 relating to the BPA awarded to Staples.

     In 2010, Above the Standards similarly awarded a $450,000 BPA to A – Z
     Solutions for janitorial supplies for ETR’s four centers, including ETR Oneonta.
     The consultant sent an RFP to selected janitorial supply vendors. The RFP
     requested prices for items listed on a pricing schedule. ETR Oneonta records
     indicate the consultant considered three bids, although only one bid included a
     completed pricing schedule. Above the Standards awarded the $450,000 BPA to
     A – Z Solutions even though it had not completed the pricing schedule.
     Furthermore, center records also indicated some of the vendors receiving the
     RFP did not understand the pricing schedules or had other technical problems
     and the consultant did not respond to the vendors’ questions about the bid
     process. As of our July 2011 fieldwork at ETR Oneonta, the center had claimed
     costs of $17,292 relating to the BPA awarded to A – Z Solutions.

     ETR did not comply with its own Procurement Technical Guide when awarding
     the BPAs to Staples and A – Z Solutions. Above the Standards did not advertise
     on FedBizOpps, perform an adequate cost analysis, or perform responsibility
     checks. ETR’s Procurement Technical Guide, BPA Checklist Form Number
     CPO10-008, Section 1 states, “anything over $25,000 must be additionally
     advertised on FedBizOpps.gov.” Adequate solicitations were not conducted.
     Vendors, other than those selected by Above the Standards, did not have the
     opportunity to bid on the BPAs. ETR management told us that the BPA was not
     advertised on the FedBizOpps website because the consultant was not a Federal
     contractor and could not access the website. ETR had access and could have
     advertised the BPA on FedBizOpps. Furthermore, there was no indication in the
     center records that ETA or Above the Standards attempted to address the pricing
     schedule or technical problems experienced by the other bidders and there was
     no information recorded for how costs were analyzed. Without a proper cost
     analysis, there was no way of knowing whether the government received best
     value. Additionally, ETR had not conducted responsibility checks on the bidders


                                                               ETR Oneonta Sub-Contracting
                                          9                     Report No. 26-12-001-03-370
                                           U.S. Department of Labor – Office of Inspector General


       as required by its SOP. Lastly, Staples and A – Z Solutions were listed on the
       consultant’s website as one of its “premier vendors.” The consultant’s ongoing
       relationship with Staples and A – Z Solutions indicated that it was not a fair and
       open competition.

Expenditures More Than $3,000 with Questioned Costs

As previously noted, ETR Oneonta did not comply with its own Procurement Technical
Guide when awarding purchase orders for 5 of the 30 expenditures more than $3,000
that we statistically selected. ETR Oneonta did not adequately justify and document
sole-source procurements and ETR Oneonta management approved the expenditures
without verifying the adequacy of the sole-source justifications.

From our sample of 30 expenditures, ETR Oneonta sole sourced 5 purchases, including
purchases of an exit door alarm, floor tile, rubber mats, rental of construction
equipment, rental of equipment for a day event, and class rings. In all instances, the
center was not in compliance with its own SOP #571. For sole-source justification, the
SOP states, “thorough documentation is required to justify any sole source purchases
from non-governmental sources. Any actions should reflect a strong intent and
commitment to obtain competition.” ETR Oneonta’s justification for these purchases
stated that there was only one responsible source and there were no other supplies or
services that satisfied agency requirements. No documentation indicating a strong intent
and commitment to obtain competition was maintained. As such, we questioned the
$21,864 paid for the 5 purchases.

The $21,864 represented 5.9 percent of the $371,352 in expenditures that we tested.
Based on our statistical sample, we are 95 percent confident there were between 7 and
17 expenditures where vendor selection did not comply with applicable sections of the
FAR, resulting in between $20,120 and $73,402 4 in improperly awarded purchase
orders. Together with the 8 improperly awarded sub-contracts, the total questioned cost
for improperly awarded purchase orders and sub-contracts may be as high as $588,945
($515,543 plus $73,402).

Non-Compliance Caused By Weak Control Environment

These conditions occurred because ETR Oneonta did not always follow its own SOPs
as cited in this report; and training and oversight were not adequate. The center also did
not have sufficiently detailed procedures in place. ETR Oneonta can improve its
procurement SOPs to include adequate documentation, evaluator signatures, and the
specific steps to ensure all sub-contracts and expenditures are advertised, evaluated,
awarded, and costs supported. For example, specific guidance on justifying
sole-source procurement should result in more effective efforts to solicit multiple
sources (such as market research and direct solicitations) and improved documentation.
As such, ETR Oneonta had not established a control environment to ensure compliance
and best value to the government. In response to our draft report, ETR disagreed with
4
Midpoint estimate $46,761

                                                                  ETR Oneonta Sub-Contracting
                                            10                     Report No. 26-12-001-03-370
                                         U.S. Department of Labor – Office of Inspector General


our use of specific FAR criteria when assessing ETR Oneonta’s procurement practices.
Based on the responses of ETR and ETA, we revised the report to reflect that ETR
must comply with its own procurement SOPs, which must be consistent with FAR
principles for fair and open competition. We also believe that ETR’s response does not
adequately address its inconsistent contracting practices as defined by its own
procurement guidance, which we cite as criteria in this report.

Furthermore, neither ETA contracting personnel nor Job Corps regional staff adequately
monitored ETR Oneonta’s procurement activities to determine whether the center’s use
of competition and best value were achieved in its sub-contracting. Because ETR did
not have an approved purchasing system, ETR Oneonta obtained consent from the
ETA Contracting Officer for all its sub-contracts. Additionally, ETR Oneonta had
approved SOPs, which were, by approval, deemed adequate by ETA. Despite these
approvals, ETR did not consistently comply with its own procurement SOPs and ensure
best value to the government.

Recommendations

We recommend the Assistant Secretary require the Regional Job Corps Office and ETA
Contracting Officers to:

   1. Determine the fair value of services received under the procurements we 

      questioned and recover any difference in actual costs claimed;


   2. Strengthen procedures to ensure ETR Oneonta complies with its own
      procurement guidance when awarding sub-contracts and purchase orders, and
      claiming related costs. This should include reviewing ETR Oneonta’s
      procurement activities for adequate compliance during on-site center
      assessments;

   3. Review all future ETR Oneonta sub-contracts for adequate procurement

      compliance prior to approval.


Also, we recommend the Assistant Secretary for Employment and Training require
Education and Training Resources to:

   4. Strengthen ETR Oneonta’s SOPs pertaining to procurement. Revisions need to
      include the required documentation, evaluator signatures, and the specific steps
      to ensure all sub-contracts and expenditures are advertised, evaluated awarded,
      and costs supported.

   5. Provide training as needed to ensure procurement staff is proficient on its own
      ETR Oneonta procurement requirements.

   6. Develop procedures for providing and documenting supervisory oversight of ETR
      Oneonta procurements.


                                                                ETR Oneonta Sub-Contracting
                                          11                     Report No. 26-12-001-03-370
                                          U.S. Department of Labor – Office of Inspector General




We appreciate the cooperation and courtesies that ETA personnel and ETR Oneonta
officials extended to the Office of Inspector General during this audit. OIG personnel
who made major contributions to this report are listed in Appendix F.




Elliot P. Lewis
Assistant Inspector General for Audit




                                                                 ETR Oneonta Sub-Contracting
                                           12                     Report No. 26-12-001-03-370
            U.S. Department of Labor – Office of Inspector General




Exhibits





                                   ETR Oneonta Sub-Contracting
             13                     Report No. 26-12-001-03-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                    ETR Oneonta Sub-Contracting
              14                     Report No. 26-12-001-03-370
                                          U.S. Department of Labor – Office of Inspector General


                                                                                    Exhibit 1
FAR Criteria on Sub-Contracting Used by ETA Contracting Officers


The following FAR subparts show the criteria ETA Contracting Officers use when
reviewing sub-contracting by center operators.

FAR Part 44, Sub-contracting Policies and Procedures

   •	 FAR Subpart 44.202-2(a) (5) – The Contracting Officer shall obtain adequate
      price competition or properly justify its absence.

   •	 FAR Subpart 44.202-2(a)(7) and FAR Subpart 9.104-1 – The Contracting Officer
      shall obtain a sound basis for selecting and determining the responsibility of the
      particular subcontractor, including past performance, technical requirements, and
      ability to comply with proposed performance and delivery schedules.

   •	 FAR Subpart 44.202-2(a)(8) – The Contracting Officer shall perform adequate
      cost or price analysis or price comparisons and obtain certified cost or pricing
      data and data other than certified cost or pricing data.

   •	 FAR Subpart 44.202(a) (9) – The Contracting Officer shall select the sub-contract
      type that should be appropriate for the risks involved and be consistent with
      current policy.

   •	 FAR Subpart 44.202-2(a) (11) – The Contracting Officer shall adequately and
      reasonably translate prime contract technical requirements into subcontract
      requirements.

FAR Subpart 52.216-7, Allowable Cost and Payment

   •	 Subpart 52.216-7(a) Invoicing (sub-paragraph 1) – The Government will make
      payments to the Contractor in accordance with FAR Subpart 31.2.

FAR Subpart 31.2 Contracts with Commercial Organization

   •	 Subpart 31.201-2 (d) Determining Allowability – A contractor is responsible for
      accounting for costs appropriately and for maintaining records, including
      supporting documentation, adequate to demonstrate that costs claimed have
      been incurred, and are allocable to the contract. The Contracting Officer may
      disallow all or part of a claimed cost that is inadequately supported.




                                                                 ETR Oneonta Sub-Contracting
                                           15                     Report No. 26-12-001-03-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                    ETR Oneonta Sub-Contracting
              16                     Report No. 26-12-001-03-370
                                            U.S. Department of Labor – Office of Inspector General


                                                                                      Exhibit 2
ETR Oneonta Sub-contracts and SOP Non-compliance

                             Amount of
Vendor Name                  Contract    Service Provided     SOP Non-compliance
All American Midwest, Inc    $34,800     Painting of dorm     • Responsibility
                                         rooms                    checks not
                                                                  conducted or
                                                                  documented
                                                              •	 Approval of Sub-contract not
                                                                  done in accordance with ETR
                                                                  Procurement SOP page 14
All American Midwest, Inc    52,300	     Painting hallway     • Responsibility checks not
                                         and dorm trim            conducted or documented
                                                              •	 Approval of Sub-contract not
                                                                  done in accordance with ETR
                                                                  Procurement SOP page 14
VIP Special Services, LLC    47,000	     Dorm room            • Responsibility checks not
                                         cleaning                conducted or documented
                                                              •	 Only received 2 bids and did not
                                                                 document reason why 3 bids not
                                                                 obtained as required
                                                              •	 Approval of Sub-contract not
                                                                 done in accordance with ETR
                                                                 Procurement SOP
Kathleen Bolgar              72,000	     Mental               • Only received 2 bids and did not
                                         health assessment       document reason why 3 bids not
                                         and counseling          obtained as required
                                         services
                                                              •	 Approval of Sub-contract not
                                                                 done in accordance with ETR
                                                                 Procurement SOP
Michael Meehan               108,800     Dental services      •	 Responsibility checks not
                                                                 conducted or documented
                                                              •	 Only received 1 bid and did not
                                                                 document reason why 3 bids not
                                                                 obtained as required
                                                              •	 Approval of Sub-contract not
                                                                 done in accordance with ETR
                                                                 Procurement SOP
A.O. Fox Memorial Hospital   160,000     Physician service    • Responsibility checks not
                                                                 conducted or documented
                                                              • Only received 1 bid and did not
                                                                 document reason why 3 bids not
                                                                 obtained as required
                                                              • Approval of Sub-contract not
                                                                 done in accordance with ETR
                                                                 Procurement SOP
TOTALS                       $474,900




                                                                   ETR Oneonta Sub-Contracting
                                             17                     Report No. 26-12-001-03-370
                                 U.S. Department of Labor – Office of Inspector General


BPAs Managed by ETR

                                              Costs
                                            Claimed by
                          BPA Amount       ETR Oneonta
Vendor Name                (Four ETR        As of July
                            Centers)           2011             Questioned Costs
Staples                        $450,000          $23,351                 $23,351
A- Z Solutions                 $450,000          $17,292                 $17,292
TOTALS                                                                   $40,643



Staples

See details on page 10.

A – Z Solutions

See details on page 10.




                                                        ETR Oneonta Sub-Contracting
                                  18                     Report No. 26-12-001-03-370
              U.S. Department of Labor – Office of Inspector General




Appendices





                                     ETR Oneonta Sub-Contracting
               19                     Report No. 26-12-001-03-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                    ETR Oneonta Sub-Contracting
              20                     Report No. 26-12-001-03-370
                                            U.S. Department of Labor – Office of Inspector General


                                                                                   Appendix A
Background

Job Corps is authorized by Title I-C of WIA of 1998 and is administered by ETA’s Office
of Job Corps under the leadership of the National Director and supported by a National
Office staff and a field network of 6 Regional Offices. The Job Corps program’s budget
for FY 2010 totaled about $1.7 billion.

The purpose of Job Corps is to assist disadvantaged youth, ages 16 – 24, who need
and can benefit from a comprehensive program, operated primarily in the residential
setting of a Job Corps Center (JCC), to become more responsible, employable, and
productive citizens by developing employability skills. Its training activities and living
facilities are housed within 125 centers throughout the country.

ETR Oneonta is located in Oneonta, NY, and consists of several buildings. The main
building houses the center administration and training sites along with the cafeteria.
Other buildings house the student dormitory, recreation, career preparation program,
academic training classes, outreach and admissions, and the career transition
department.

On June 1, 2009, ETR was awarded contract number DOL-J09-QA-00003 to operate
ETR Oneonta effective July 1, 2009. The contract is for operations of ETR Oneonta for
the base two-year period July 1, 2009, through June 30, 2011, at an estimated cost of
$19 million. In addition, ETR is eligible for up to 3 option years, for the period
July 1, 2011, through June 30, 2014, at a cost of approximately $29 million. ETR
Oneonta has an authorized On-Board-Strength of 370 students.




                                                                   ETR Oneonta Sub-Contracting
                                             21                     Report No. 26-12-001-03-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                    ETR Oneonta Sub-Contracting
              22                     Report No. 26-12-001-03-370
                                          U.S. Department of Labor – Office of Inspector General


                                                                                 Appendix B
Objective, Scope, Methodology, and Criteria

Objective

Based on the responses of ETR and ETA to our draft report and subsequent
communication, we revised our criteria to evaluate ETR Oneonta’s compliance with its own
procurement SOPs and the SOPs consistency with the FAR requirement for ensuring best
value to the government. As such, our audit objective was to answer the following question:

      Did ETR Oneonta ensure best value when awarding sub-contracts and
      claiming costs?

Scope

The audit covered sub-contracts managed and expenditures incurred by ETR Oneonta 

from April 1, 2010, to March 31, 2011. We examined all six sub-contracts, totaling

$474,900, managed by ETR Oneonta during this period. In addition, we reviewed the

two corporate sub-contracts, totaling $900,000, awarded by ETR that covered the four

centers operated by ETR, including Oneonta. We also reviewed a statistical sample of

30 expenditures more than $3,000, totaling $371,352, from 60 expenditures, totaling

$583,435. These expenditures were generally initiated by purchase orders and were 

separate items from the six sub-contracts we reviewed. ETR’s contract to operate ETR

Oneonta was not included in our review because it was awarded by ETA. In addition, no 

ETR Oneonta sub-contracts were awarded by ETA.


Our audit work was conducted at the ETR Oneonta Job Corps Center in Oneonta, NY; 

ETA Headquarters’ Office of Contract Management and the Job Corps National Office 

in Washington, DC; and the Boston Regional Office of Job Corps in Boston, MA.


We considered the internal control elements of control environment, risk assessment,

control activities, information and communication, and monitoring during our planning

and substantive audit phases. We conducted audit work at ETR Oneonta in 

Oneonta, NY, and ETA’s National office in Washington, DC.


We conducted this performance audit in accordance with generally accepted 

government auditing standards. Those standards require that we plan and perform the 

audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our

findings and conclusions based on our audit objective. We believe the evidence 

obtained provides a reasonable basis for our findings and conclusions based on the 

audit objective.


Methodology

To accomplish the audit objective, we obtained an understanding of applicable sections
of the FAR, and Job Corps’ and ETR Oneonta’s procurement regulations and policies.


                                                                 ETR Oneonta Sub-Contracting
                                           23                     Report No. 26-12-001-03-370
                                             U.S. Department of Labor – Office of Inspector General


We conducted interviews with ETR Oneonta officials responsible for procurement and
invoice payment.

To assess ETR Oneonta’s internal controls over procurement, we interviewed key
center staff; reviewed applicable Job Corps requirements, including Job Corps’ PRH,
applicable sections of the FAR, contract provisions and ETR Oneonta’s SOPs; analyzed
the most recent Job Corps Regional Office Center Assessment and ETR’s most recent
corporate center assessment; and performed a walkthrough of the procurement
process. We identified and evaluated the internal controls of ETR Oneonta, ETR
Corporate and ETA/Job Corps over the monitoring and approval of sub-contracts
awarded by ETR Oneonta as of July 2011.

Specifically, we obtained all supporting documents pertaining to announcing the
solicitation, performing responsibility checks of vendors, awarding the contracting
instrument, and paying invoices for the eight sub-contracts and 30 expenditures. We
tested the files for completeness for the six sub-contracts awarded by ETR Oneonta by
conducting a meeting with the ETR Oneonta contracting officer and reviewing the
contract files. We tested the check register for completeness by verifying check dates
that were issued during our audit period, by verifying that all checks were in sequential
order, and by verifying that missing checks had been voided by ETR Oneonta.

The universe used in our audit consisted of the eight sub-contracts and the 60
expenditures more than $3,000. We tested the eight sub-contracts. For expenditures,
we stratified the universe into 7 strata. Each of the 7 strata was based on the dollar
amount of the expenditures. The schedule provides details on the strata’s range of
expenditures, the number of expenditures in each strata, and the expenditures selected
for audit within each strata.

                                               Number of Checks        Number of Checks
 Strata          Range of Checks
                                                 in the Strata         Selected For Audit

      1.               $100,000 - $110,000               1                         1

      2.                 $21,000 - $99,999               3                         3

      3.                 $15,000 - $20,999               6                         3

      4.                 $10,000 - $14,999               7                         3

      5.                   $5,000 - $9,999              19                         9

      6.                   $3,500 - $4,999              13                         6

      7.                   $3,017 - $3,499              11                         5

 Totals                                                 60                         30

                                                                    ETR Oneonta Sub-Contracting
                                              24                     Report No. 26-12-001-03-370
                                           U.S. Department of Labor – Office of Inspector General




We reviewed all six sub-contracts, totaling $474,900, managed by ETR Oneonta during
this period. We tested each of the sub-contracts and expenditures for compliance with
the ETR Oneonta’s SOPs, including awarding sub-contracts based on advertising,
competition, adequate justification, documentation, and cost or price analysis. In
addition, we reviewed the two corporate sub-contracts, totaling $900,000, awarded by
ETR that covered the four centers operated by ETR (including Oneonta), and managed
by ETR Oneonta during April 1, 2010, to March 31, 2011. We obtained the contract files
and reviewed all supporting documentation provided by ETR Oneonta to assess
compliance with ETR Oneonta SOPs.

We reviewed 100 percent of the invoices for the eight sub-contracts to determine
whether payments were supported as required by FAR Subpart 52.216-7. We found no
errors.

For purchase orders issued by ETR Oneonta, we obtained the check register for the
audit period. From the check register we excluded checks related to payroll, checks less
than $3,000, payments related to the eight sub-contracts reviewed, and payments for
utilities. This left 60 expenditures. We used statistical sampling to select a sample of 30
expenditures.

A performance audit includes an understanding of internal controls considered
significant to the audit objective and testing compliance with significant laws,
regulations, and other requirements. In planning and performing our audit, we
considered whether internal controls significant to the audit were properly designed and
placed in operation. This included reviewing ETR Oneonta’s policies and procedures
related to procurement. We confirmed our understanding of these controls and
procedures through interviews and documentation review and analysis. We evaluated
internal controls used by ETR Oneonta for reasonable assurance that the awarding of
sub-contracts and payment of invoices were done according to federal and Job Corps
requirements. Our consideration of ETR Oneonta’s internal controls for awarding of
sub-contracts and payment of invoices would not necessarily disclose all matters that
might be reportable conditions. Because of inherent limitations in internal controls,
misstatements, losses, or noncompliance may nevertheless occur and not be detected.

To achieve the assignment’s objective, we relied on the computer-processed data
contained in ETR Oneonta’s check register. We assessed the reliability of the data by:
(1) performing various tests of required data elements, and (2) interviewing ETR
Oneonta financial officials knowledgeable of the data. Based on these tests and
assessments, we concluded the data was sufficiently reliable to use in meeting the audit
objective.




                                                                  ETR Oneonta Sub-Contracting
                                            25                     Report No. 26-12-001-03-370
                                                         U.S. Department of Labor – Office of Inspector General




Criteria

We used the following criteria to perform this audit:

    •    Federal Acquisition Regulations
    •    Job Corps Policy and Requirements Handbook
    •    ETR Oneonta Standard Operating Procedures
    •    ETR Corporate Standard Operating Procedures

Specifically, FAR Subpart 44.302 requires ETA to determine the need for a Contractor
Purchasing System Review (CPSR) based on, but not limited to, the past performance of
the contractor and dollar value of sub-contracts (generally $25 million). FAR Subpart
44.301 states that the objective of a CPSR is to evaluate the efficiency and effectiveness
with which the contractor spends Government funds and complies with Government policy
when sub-contracting. The review provides the Contracting Officer with a basis for granting,
withholding, or withdrawing approval of the contractor’s purchasing system. 5 Furthermore,
FAR Subpart 44.303 states:

         The 13 considerations listed in FAR Subpart 44.202-2 for consent evaluation
         of particular sub-contracts also shall be used to evaluate the contractor’s
         purchasing system, including the contractor’s policies, procedures, and
         performance under that system.

FAR Subpart 44.202-2 notes that special attention shall be given to the 13 considerations
including:

         (a) The results of market research accomplished;
         (b) The degree of price competition obtained;
         (c) Pricing policies and techniques, including methods of obtaining certified cost or
         pricing data;
         (d) Methods of evaluating sub-contractor responsibility;
         (g) Planning, award, and post-award management of major sub-contract programs;
         and
         (j) Appropriateness of types of contracts used.

See Exhibit 1 for selected details on the FAR criteria ETA Contracting Officers use to
evaluate contractor purchasing systems.

In addition, DOL policy for conducting CPSRs (Section 4.9) states that it is in the
government’s interest to perform CPSRs when a contractor’s total combined business with
Job Corps exceeds $25 million. The DOL policy further clarifies the center operators’
responsibility to establish procurement policies and procedures that are consistent with the

 ETA reviews each center operator’s procurement systems every three years. If the procurement system is
5

“approved,” ETA contracting officials reduce their oversight of the center operator’s procurement activities.


                                                                                     ETR Oneonta Sub-Contracting
                                                          26                          Report No. 26-12-001-03-370
                                          U.S. Department of Labor – Office of Inspector General


FAR. The DOL policy states that under the terms of center operator contracts, Contracting
Officers are responsible for ensuring that contractors procure goods and services on behalf
of the Job Corps program in conformance with the contract provisions and principles
detailed in the FAR. Contracting Officers can either review and consent to all sub-contracts
for the contract, or may approve the contractor’s purchasing system. The policy also states
that the FAR allows for approval of purchasing systems that demonstrate compliance with
FAR principles after a rigorous review of all purchasing manuals and procedures.




                                                                 ETR Oneonta Sub-Contracting
                                           27                     Report No. 26-12-001-03-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                    ETR Oneonta Sub-Contracting
              28                     Report No. 26-12-001-03-370
                                     U.S. Department of Labor – Office of Inspector General


                                                                            Appendix C
Acronyms


BPA           Blanket Purchase Agreement

DOL           U.S. Department of Labor

ETA           Employment and Training Administration

ETR           Education and Training Resources

ETR Oneonta   Oneonta Job Corps Center, operated by ETR

FAR           Federal Acquisition Regulations

OIG           Office of Inspector General

PRH           Policy and Requirements Handbook

RFP           Request for Proposal

SOPs          Standard Operating Procedures

WIA           Workforce Investment Act of 1998




                                                            ETR Oneonta Sub-Contracting
                                      29                     Report No. 26-12-001-03-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                    ETR Oneonta Sub-Contracting
              30                     Report No. 26-12-001-03-370
                               U.S. Department of Labor – Office of Inspector General


                                                                      Appendix D
ETA Response to Draft Report




                                                      ETR Oneonta Sub-Contracting
                                31                     Report No. 26-12-001-03-370
U.S. Department of Labor – Office of Inspector General




                       ETR Oneonta Sub-Contracting
 32                     Report No. 26-12-001-03-370
U.S. Department of Labor – Office of Inspector General




                       ETR Oneonta Sub-Contracting
 33                     Report No. 26-12-001-03-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                    ETR Oneonta Sub-Contracting
              34                     Report No. 26-12-001-03-370
                               U.S. Department of Labor – Office of Inspector General


                                                                      Appendix E
ETR Response to Draft Report




                                                      ETR Oneonta Sub-Contracting
                                35                     Report No. 26-12-001-03-370
U.S. Department of Labor – Office of Inspector General




                       ETR Oneonta Sub-Contracting
 36                     Report No. 26-12-001-03-370
U.S. Department of Labor – Office of Inspector General




                       ETR Oneonta Sub-Contracting
 37                     Report No. 26-12-001-03-370
U.S. Department of Labor – Office of Inspector General




                       ETR Oneonta Sub-Contracting
 38                     Report No. 26-12-001-03-370
U.S. Department of Labor – Office of Inspector General




                       ETR Oneonta Sub-Contracting
 39                     Report No. 26-12-001-03-370
U.S. Department of Labor – Office of Inspector General




                       ETR Oneonta Sub-Contracting
 40                     Report No. 26-12-001-03-370
U.S. Department of Labor – Office of Inspector General




                       ETR Oneonta Sub-Contracting
 41                     Report No. 26-12-001-03-370
U.S. Department of Labor – Office of Inspector General




                       ETR Oneonta Sub-Contracting
 42                     Report No. 26-12-001-03-370
U.S. Department of Labor – Office of Inspector General




                       ETR Oneonta Sub-Contracting
 43                     Report No. 26-12-001-03-370
U.S. Department of Labor – Office of Inspector General




                       ETR Oneonta Sub-Contracting
 44                     Report No. 26-12-001-03-370
U.S. Department of Labor – Office of Inspector General




                       ETR Oneonta Sub-Contracting
 45                     Report No. 26-12-001-03-370
U.S. Department of Labor – Office of Inspector General




                       ETR Oneonta Sub-Contracting
 46                     Report No. 26-12-001-03-370
U.S. Department of Labor – Office of Inspector General




                       ETR Oneonta Sub-Contracting
 47                     Report No. 26-12-001-03-370
U.S. Department of Labor – Office of Inspector General




                       ETR Oneonta Sub-Contracting
 48                     Report No. 26-12-001-03-370
U.S. Department of Labor – Office of Inspector General




                       ETR Oneonta Sub-Contracting
 49                     Report No. 26-12-001-03-370
U.S. Department of Labor – Office of Inspector General




                       ETR Oneonta Sub-Contracting
 50                     Report No. 26-12-001-03-370
U.S. Department of Labor – Office of Inspector General




                       ETR Oneonta Sub-Contracting
 51                     Report No. 26-12-001-03-370
U.S. Department of Labor – Office of Inspector General




                       ETR Oneonta Sub-Contracting
 52                     Report No. 26-12-001-03-370
U.S. Department of Labor – Office of Inspector General




                       ETR Oneonta Sub-Contracting
 53                     Report No. 26-12-001-03-370
U.S. Department of Labor – Office of Inspector General




                       ETR Oneonta Sub-Contracting
 54                     Report No. 26-12-001-03-370
U.S. Department of Labor – Office of Inspector General




                       ETR Oneonta Sub-Contracting
 55                     Report No. 26-12-001-03-370
U.S. Department of Labor – Office of Inspector General




                       ETR Oneonta Sub-Contracting
 56                     Report No. 26-12-001-03-370
U.S. Department of Labor – Office of Inspector General




                       ETR Oneonta Sub-Contracting
 57                     Report No. 26-12-001-03-370
U.S. Department of Labor – Office of Inspector General




                       ETR Oneonta Sub-Contracting
 58                     Report No. 26-12-001-03-370
U.S. Department of Labor – Office of Inspector General




                       ETR Oneonta Sub-Contracting
 59                     Report No. 26-12-001-03-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                    ETR Oneonta Sub-Contracting
              60                     Report No. 26-12-001-03-370
                                          U.S. Department of Labor – Office of Inspector General


                                                                                 Appendix F
Acknowledgements

Key contributors to this report were Ray Armada (Audit Director), Michael Elliott (Audit
Manager), Patrick Trager (Lead Auditor), Sheila Lay, and Daniel Rhodes (Auditors), and
Steve Witherspoon (Reviewer).




                                                                 ETR Oneonta Sub-Contracting
                                           61                     Report No. 26-12-001-03-370
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:      1-800-347-3756
                202-693-6999

Fax:            202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor
         200 Constitution Avenue, N.W.
         Room S-5506
         Washington, D.C. 20210
